                                                              NATIONAL SCIENCE FOUNDATION
                                                              OFFICE OF INSPECTOR GENERAL
                                                                OFFICE OF INVESTIGATIONS

                                                 CLOSEOUT MEMORANDUM

 Case'Number:            AIIOIOOOI                                                             Page 1 of 1


         We received      an allegation    that   a University's   Authorized      Organizational
         Representative   (AOR)l had falsely certified to NSF about the eligibility of a PI. The
         University submitted a proposal to NSF that was awarded.2 Two days after NSF
         made the award, a faculty member at the University contacted NSF and asked to be
         added to the grant as a co-PI because the PI is leaving, and the University needed
         to name a substitute PI until the grant could be transferred.     NSF also learned the
         PI was not a faculty member, but adjunct faculty and, by the University's own rules,
      ~, ineligible to be PI.
        We wrote to the AOR and asked for an explanation about the PI's eligibility.   The'
        AOR explained that the PI was an adjunct faculty, but with the title of Assistant
        Professor. Under the University policy, an adjunct generally would be unable to be
        PI without a faculty member as co-PI, unless the adjunct was granted exceptional
        status.   She stated the PI would have been eligible if he complied with the
        conditions for exceptional status, but provided no documentation   supporting the
        granting of that status.
        We asked for clarification of the AOR's answer and documentation      supporting the
        University's determination  of exceptional status. She stated the PI w'as eligible and
        provided the University's  documentation    of his status.  While the documentation
        shows the approval for the PI's proposal, according to the dates on it, it was not
        approved until 2 weeks after the proposal was submitted          to NSF.    The AOR
        acknowledged there were some internal procedures requiring improvement, and the
        University was following through on doing so.
        We sent a letter to the                  AOR supporting      the University's     review such that
        questionable administrative              practices are avoided. Accordingly,    this case is closed.




             1 [redacted]    is theAOR   for [redacted]       (the University).
                                                          .
             2 [redacted].




NSF OIG Form 2 (11/02)
